 AUDIT OF THE FEDERAL BUREAU OF 

INVESTIGATION’S ACCOUNTING AND 

REPORTING OF FUNDS DISTRIBUTED

  FROM THE CRIME VICTIMS FUND


        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division


            Audit Report 13-38

             September 2013

  AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION’S

  ACCOUNTING AND REPORTING OF FUNDS DISTRIBUTED 

            FROM THE CRIME VICTIMS FUND


                            EXECUTIVE SUMMARY


      The Crime Victims Fund (CVF), established by the Victims of Crime Act
of 1984 (VOCA), is a major funding source for victim services throughout the
nation.1 Funding for the CVF is generated from criminal fines, forfeited bail
bonds, penalties, and special assessments collected from offenders convicted
of federal crimes. The Office for Victims of Crime (OVC), within the
Department of Justice Office of Justice Programs (OJP), is responsible for the
administration of the CVF.

      Each year Congress establishes a cap on the amount of CVF funds that
the OVC can distribute.2 Once the cap is established, the OVC distributes
CVF funds in accordance with the statutory distribution authorized by the
VOCA to the Federal Bureau of Investigation (FBI), the U.S. Attorneys’
Offices and to state and local programs. The total funding available to the
FBI based on the CVF statutory distribution was approximately $14.6 million
in FY 2009, $16.1 million in FY 2010, $17.6 million in FY 2011, and
$17.1 million in FY 2012.

       The FBI administers its CVF funds through an interagency agreement
with the OVC under which OVC provides CVF funds to the FBI through
reimbursements for approved program expenditures. FBI uses these funds
to support 134 Victim Specialists assigned to divisions and field offices
across the country to assist victims in coping with the immediate aftermath
of a crisis and to facilitate their cooperation with investigators and
prosecutors throughout the investigation of a federal crime.3 Victim
Specialists are responsible for ensuring that victims who choose to receive
notification are informed of important case events and receive assistance in
obtaining victim services in their location, such as state crime victim
compensation programs, rape crisis centers, homicide bereavement support
groups, mental health counseling, and special services for child victims.

      1
          42 U.S.C. § 10601 (2006).
      2
         The cap is established in the Commerce, Justice and Science appropriations
enacted annually by Congress.
      3
        In FY 2009, the FBI’s CVF funds supported 122 Victim Specialist positions. In
FYs 2010 and 2011, the FBI’s CVF funds supported 134 Victim Specialist positions.

                                            i
      Our review encompassed the FBI’s accounting of CVF funds for
FYs 2009 through 2011, although due to limitations in the accounting
records maintained by the FBI, we did not perform a complete analysis of
FYs 2010 and 2011.4

      We found that the FBI did not have adequate internal controls over
CVF funds to ensure compliance with all rules, regulations, and guidelines.
Specifically, we found that the system implemented by the FBI to track and
document CVF expenditures was insufficient and unreliable. We were unable
to reconcile the supporting documentation maintained by the FBI with the
quarterly totals provided in the FBI’s expenditure tracking spreadsheets, and
we identified approximately $249,000 in transactions that lacked sufficient
documentation to support the expenses. We therefore concluded that for
the information reviewed, and although we did not identify significant misuse
of funds, the FBI’s expenditure tracking spreadsheets were not accurately
supported by the documentation provided.

      We also found other deficiencies in the FBI’s accounting and
administration of CVF funds. We found that the FBI had not implemented
adequate year-end procedures to ensure that all unspent CVF funds were
returned to the FBI’s CVF account, and as a result, approximately $527,000
in CVF funds were left idle at the FBI for 2 years instead of being used to
fund victim services, and $4,000 was mistakenly placed in other FBI
program accounts where it could have been used for unrelated purposes.5
We found that the FBI did not accurately request reimbursement from the
OVC for expenses incurred to support its Victim Specialist positions,
including approximately $631,000 in Victim Specialist expenses during
FY 2009. Insufficient coordination between FBI officials to ensure CVF
accounting records were accurate contributed to this problem.

      In addition, we found that the FBI did not accurately report its total
expenditures of CVF funds or the amount of unspent CVF funds to the OVC,
or provide sufficient financial accounting to the OVC detailing its
expenditures of CVF funds as required under the interagency agreement
between the FBI and the OVC. Specifically, we found that the FBI
underreported the amount of funding that remained unspent to the OVC by
approximately $354,000 in FY 2009, which resulted in the OVC mistakenly



     4
         Appendix I contains a detailed explanation of the analysis performed.
     5
         Amounts presented in the report are rounded to the nearest thousand.

                                             ii
awarding the FBI that same amount in additional new CVF funds in
FY 2010.6

       The FBI’s inadequate accounting, administration, and reporting of CVF
expenditures resulted in an increased risk for the misuse of CVF funds, the
failure to pursue appropriate reimbursements for expenditures from OVC,
and potential for material misstatements of total expenditures in the future
that could prompt OVC to award the FBI additional CVF funds beyond what
the FBI would otherwise receive. In addition, the VOCA’s statutory
distribution system prescribes that state and local programs receive their
annual CVF funding levels after all other program areas are funded, including
the FBI’s CVF funds. Therefore, the deficiencies we identified also have the
potential to affect the amount of CVF funding received by the state and local
programs, and consequently to affect the services available to victims.

      In FY 2012, after the close of our audit period, the FBI implemented a
new tracking system that allows for more detailed recording of expenses and
therefore could allow more accurate tracking and documenting of CVF
expenditures, more accurate requests for reimbursement from OVC, and
more accurate annual reporting of CVF expenditures and unspent CVF funds
to the OVC.7

       Our audit resulted in three recommendations to the FBI to improve the
effectiveness of its internal controls over CVF funds. These
recommendations include conducting analysis for FYs 2010 and 2011 to
identify and remedy unspent CVF funds, unbilled CVF expenses, and
improperly transferred CVF funds; implementing internal controls to ensure
the FBI is in compliance with all rules, regulations, and guidelines related to
the administration of CVF funds; and enhancing coordination efforts within
the FBI and with the OVC to ensure CVF funds are properly accounted for
and accurately reported.




       6
          The carryover amount is an estimate based on the accounting records at the time
of reporting. The OVC approves the funding level requested by the FBI for the year and
generally subtracts any unspent funding from the previous year’s funding level, known as
carryover funding, from the total requested amount. The difference represents new funding
from the CVF awarded to the FBI.
       7
          Because a complete year of accounting data from the new system was not
available at the time of our audit, we did not perform an evaluation of the new system.

                                             iii
          AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION’S

               ACCOUNTING AND REPORTING OF FUNDS

             DISTRIBUTED FROM THE CRIME VICTIMS FUND 



                                   TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1
 
     Office of the Inspector General Audit Approach ................................. 3
 
     FBI Administration of the CVF Funds and Services Provided with CVF 

     Funds.......................................................................................... 3
 
OVERVIEW OF THE FBI SYSTEM FOR TRACKING AND 

DOCUMENTING CVF FUNDS .............................................................. 4
 
INADEQUATE FBI SYSTEM FOR TRACKING CVF EXPENDITURES ....... 6
 
     The FBI OVA Creation of Accounting Records to More Accurately 

     Account for FY 2009 CVF Expenses .................................................. 8
 
     Accounting Improvements in FY 2012 ............................................ 11
 
IMPROPER REPORTING OF FBI EXPENSES TO THE OVC FOR 

REIMBURSEMENT UNDER THE INTERAGENCY AGREEMENT ............. 11
 
     Reimbursement System Improvements in FY 2012 .......................... 14
 
INACCURATE REPORTING OF TOTAL EXPENDITURES TO THE OVC .. 14
 
     Reporting Improvements in FY 2012.............................................. 16
 
CONCLUSION .................................................................................. 16
 
RECOMMENDATIONS ...................................................................... 17
 
STATEMENT ON INTERNAL CONTROLS............................................ 18
 
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 19
 
APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 20
 
APPENDIX II: THE FEDERAL BUREAU OF INVESTIGATION’S 

             RESPONSE TO THE DRAFT AUDIT REPORT .............. 24
 
APPENDIX III: THE OFFICE OF JUSTICE PROGRAM’S RESPONSE                   

              TO THE DRAFT AUDIT REPORT ............................... 31
 
APPENDIX IV: OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

             SUMMARY OF ACTIONS NECESSARY TO CLOSE                                 

             THE REPORT ........................................................... 34
 
                                  INTRODUCTION

       The Crime Victims Fund (CVF), established by the Victims of Crime Act
of 1984 (VOCA), is a major funding source for victim services throughout the
nation.1 Funding for the CVF is generated from criminal fines, forfeited bail
bonds, penalties, and special assessments collected from offenders convicted
of federal crimes. Through an amendment to the VOCA in 1988, the Office
for Victims of Crime (OVC) was established within the Department of Justice
Office of Justice Programs (OJP) to administer the CVF.2 CVF funds support
a wide range of victim services and assistance, including assistance with
medical care and mental health counseling, support during criminal justice
proceedings, and emergency financial assistance.

      Each year during the appropriations process, Congress places a cap on
the funds available from the CVF for distribution in order to maintain the CVF
as a stable source of support for future services.3 The CVF caps enacted by
Congress were $635 million in fiscal year (FY) 2009 and $705 million each
year from FYs 2010 through 2012.

      Once the cap is established, the OVC distributes the funds to each
authorized program area in accordance with the statutory distribution
authorized by the VOCA. First, $10 to $20 million is used for grants to
states to improve the investigation and prosecution of child abuse
(Children’s Justice Act).4 Additional funds are then set aside for 3 programs
to support federal victim services: (1) a program to support Victim Witness
Coordinator full-time equivalent (FTE) positions in the 94 U.S. Attorneys’
Offices; (2) a program to support Victim Specialist FTE positions in the
Federal Bureau of Investigation (FBI); and (3) a program to support the
Federal Victim Notification System (VNS).5
      1
          42 U.S.C. § 10601 (2006).
      2
          42 U.S.C. § 10605 (2006).
      3
         The cap is established in the Commerce, Justice and Science appropriations
enacted annually by Congress.
      4
          42 U.S.C. § 10603a (2006). For these grants, the term “state” includes each
state, the District of Columbia, and the Commonwealth of Puerto Rico.
      5
         When Congress created these programs it made available “such sums as may be
necessary” to improve services to federal crime victims. Each year the OVC, as the
administrator of the CVF, approves the amount of new funding each program receives. In
FY 2011, these programs supported 170 FTE positions in the U.S. Attorneys’ Offices and
134 FTE positions at the FBI, and provided approximately $4.8 million in support to the
VNS.

                                            1

       Of the amount remaining after the above allocations, 5 percent is used
for discretionary grants administered by the OVC for demonstration projects,
training and technical assistance, and services to victims of federal crimes;
47.5 percent is available for state crime victim compensation grants; and
47.5 percent plus any amount not used for state crime victim compensation
grants is allocated for grants to states to support direct assistance services
to victims of crime.6

      Exhibit 1 below shows the distribution of CVF funds to each program
area for FYs 2009 through 2012.

       EXHIBIT 1: FYs 2009 THROUGH 2012 CVF DISTRIBUTION
         OF FUNDS FOR EACH PROGRAM AREA (IN MILLIONS)
PROGRAM AREA                                   FY 2009     FY 2010     FY 2011      FY 2012
CHILDREN’S JUSTICE ACT                            $20.0       $19.4       $20.0        $20.0
U.S. ATTORNEYS’ OFFICES VICTIM WITNESS
COORDINATORS                                       21.4         22.9        23.4        21.5
FBI VICTIM SPECIALISTS                             14.1         14.6        15.8        16.2
VICTIM NOTIFICATION SYSTEM                          5.0          5.5         4.8         4.5
OVC DISCRETIONARY GRANTS                           28.7         32.1        32.1        29.4
STATE VICTIM COMPENSATION GRANTS                  182.0        198.0       180.9       178.1
STATE VICTIM ASSISTANCE GRANTS                    363.8        412.1       428.1       379.7
MANAGEMENT AND ADMINISTRATIVE COSTS                                                    55.67
TOTAL DISTRIBUTION OF CVF FUNDS                   $635         $705        $705        $705
Source: The National Association of VOCA Assistance Administrators, the OVC, and OJP

       According to the OVC, the sequence in which CVF funds are distributed
annually can have a significant impact on the amount of funding available for
victim services supported by compensation and assistance formula grants.
Because the distribution of CVF funds for the state victim assistance grants
is calculated after all other program areas, an increase in any of the other


       6
          In addition, up to 5 percent of amounts remaining in the CVF, after the annual
distribution, may be used to replenish the $50 million Antiterrorism Emergency Reserve.
These funds are available to assist victims of international and domestic terrorism or mass
violence and compensation to international terrorism victims.
       7
         For FY 2012 and subsequent years, Congress directed the Department of Justice to
use program funds for grant offices’ management and administrative costs. In FY 2012,
OJP’s management and administrative costs assessment averaged 8.1 percent of its grant
program funding; the actual amount assessed against the CVF was approximately
$55.6 million. Congress made a separate appropriation for OJP’s management and
administrative costs for FYs 2009 through 2011.

                                             2

program areas, including the FBI program, reduces the amount that remains
available for state victim assistance grants.

Office of the Inspector General Audit Approach

       The objectives of our audit were to: (1) evaluate whether the CVF
funds distributed to the FBI were used in accordance with applicable
guidelines; and (2) evaluate the adequacy of current internal controls,
policies and procedures, and coordination efforts of the FBI and the OVC to
ensure the funds from the CVF were completely and appropriately accounted
for. Our review encompassed the FBI’s accounting of CVF funds for
FYs 2009 through 2011; although due to limitations in the accounting
records maintained by the FBI detailed in the following sections, we did not
perform a complete analysis of FYs 2010 and 2011.

      To accomplish these objectives, we analyzed the FBI’s accounting
records to determine the reliability, completeness, and accuracy of the data.
We also conducted interviews with officials at the FBI and the OVC to
determine how CVF funds are accounted for and reported to the OVC as well
as what policies and procedures exist to ensure CVF funds were used in
accordance with applicable guidelines. Appendix I contains a detailed
description of our audit objectives, scope, and methodology.

FBI Administration of the CVF Funds and Services Provided with
CVF Funds

      The FBI’s Office for Victim Assistance (OVA) was established in 2001
and is located at the FBI headquarters in Washington, D.C. The FBI OVA is
responsible for managing the daily operational aspects of its Victim
Assistance Program in 56 FBI field offices and international offices, and for
providing direction to 134 Victim Specialists. The total funding available to
the FBI from the CVF, which includes any remaining funding from the
previous year’s distribution amounts, was approximately $14,641,000 in
FY 2009, $16,133,000 in FY 2010, $17,641,000 in FY 2011, and
$17,062,000 in FY 2012.

       The FBI Victim Specialists are assigned to divisions and field offices
throughout the country to assist victims in coping with the immediate
aftermath of a crisis and to facilitate their cooperation with investigators and
prosecutors throughout the investigation of a federal crime. Victim
Specialists are responsible for ensuring that victims who choose to receive
notification are informed of case developments and proceedings prior to the
filing of charges, and to direct victims to appropriate victim assistance

                                       3

services in his or her location in accordance with the Attorney General
Guidelines for Victim and Witness Assistance, October 2011.8 These services
include state crime victim compensation programs, rape crisis centers,
homicide bereavement support groups, mental health counseling, and
special services for child victims. Victim Specialists are on call 24 hours a
day to provide direct services to victims at crime scenes, hospitals, and
other locations. Since FY 2001, the number of Victim Specialist positions
within the FBI has grown from 112 to 134.9

OVERVIEW OF THE FBI SYSTEM FOR TRACKING AND DOCUMENTING
CVF FUNDS

       Once Congress establishes the annual funding cap on the CVF, the FBI
OVA submits its annual request for funding to the OVC to support its Victim
Specialists. The OVC approves the FBI’s funding level for the year and
generally subtracts any unspent funding from the previous year’s funding
level, known as carryover funding, from the total requested amount. The
difference represents new funding from the CVF awarded to the FBI OVA.10
The CVF funds are provided to the FBI on a reimbursement basis throughout
the year, meaning that the FBI initially allocates its own resources up to the
annual amount to support Victim Specialists, and the FBI Finance Division
requests reimbursement from the OVC as expenses are incurred.11

       According to the interagency agreement between the OVC and the FBI,
the FBI must track and document CVF expenditures. Each quarter, the
FBI must submit quarterly reports with supporting documentation of
expenditures to the OVC for reimbursement. At the end of the fiscal year,
the final accounting, detailing the expenditure of funds and the remaining
funding figure, must be submitted to the OVC, which uses it to determine

       8
         Once charges are filed, victim notification becomes the responsibility of the U.S.
Attorneys’ Office in the district where the prosecution is pending.
       9
        In FY 2009, the FBI’s CVF funds supported 122 Victim Specialist positions. In
FYs 2010 and 2011, the FBI’s CVF funds supported 134 Victim Specialist positions.
       10
           For FYs 2009 through 2011, the carryover funding reduced the amount of new
CVF funding to the FBI OVA. However, in FY 2012 the OVC did not subtract the carryover
funding from the total CVF distribution amount in an effort to compensate the FBI for an
8.1 percent assessment for OJP’s management and administrative costs that had reduced
the FBI’s funding.
       11
          Ultimately, CVF funds cover each Victim Specialist’s expenses despite the initial
use of the FBI resources. Therefore, we have classified the transfers between the accounts
as CVF funds.

                                              4

subsequent year CVF distribution amounts. Exhibit 2 below provides a
general overview of the lifecycle for the FBI’s annual CVF distribution
amounts.
                 EXHIBIT 2: THE LIFECYCLE OF THE
            FBI’S ANNUAL DISTRIBUTION FROM THE CVF




  Source: The FBI Finance Division and the FBI OVA

      FBI OVA officials told the Office of the Inspector General (OIG) that the
FBI Financial Management System (FMS) cannot track CVF expenditures
separately from other expenditures. According to FBI officials, the FBI FMS
is comprised of accounts that correspond to various budget categories, such
as compensation and benefits, training, travel, and overhead. Each
FBI program office and field office also has an account to support daily
operations. The FBI’s CVF funds are transferred to the various FBI accounts
to support Victim Specialists. However, there is no unique identifier within
the FBI FMS to distinguish CVF funds from other sources of funding.

      To obtain financial data for a specific program or funding source, each
account in the system must be accessed to obtain expenditure information.
Additionally, each purchase order must be accessed to obtain specific line
item expenditure information. Occasionally, purchase orders are established
for the entire Department of Justice, therefore only certain line items may
correspond to CVF funds. Because there is no way to extract financial data
from the FBI FMS through one data call, during the OIG’s audit period, the
FBI OVA tracked CVF expenses using a spreadsheet that provided quarterly




                                           5

summary totals of expenditures by budget category.12 The expenditure
tracking spreadsheets did not include specific line item transactions with
dates, descriptions, and amounts; rather, most of the data to support the
summary totals was in hardcopy form rather than electronic form.

       Moreover, the FBI OVA does not have access to the FBI FMS and
therefore must coordinate with the FBI Finance Division to complete all
transfers between FBI accounts and to request reimbursement from the
OVC. At the end of the year, the FBI OVA identifies any remaining funds in
each of the accounts and requests the FBI Finance Division transfer the
unspent money back to the FBI OVA account. To assist in identifying
remaining funds, the FBI Finance Division provides the FBI OVA with a report
at the end of the fiscal year that shows the total amount of CVF funds
available in each field office account. However, because the report
generated by the FBI Finance Division does not provide any details related to
the expenditures incurred by each field office or expenditures expected to be
incurred in the near future, the FBI OVA must coordinate with field offices to
ensure CVF funds are properly tracked and accounted for. Also, at year-end
the FBI OVA must contact each field office to determine how much of the
total amount of funds available is attributable to unspent CVF funds. After
the field office identifies the unspent CVF funds, the FBI OVA provides the
information to the FBI Finance Division to transfer the unspent CVF funds
back to the FBI OVA account. In addition, the FBI Finance Division runs
reports for travel expenditures relating to the Victim Specialist positions and
provides them to the FBI OVA to verify their accuracy. Therefore, the FBI
OVA must properly track the available balance and incurred expenses to
ensure all CVF funds are accurately accounted for and reported.

INADEQUATE FBI SYSTEM FOR TRACKING CVF EXPENDITURES

      To determine whether the FBI was in compliance with the interagency
agreement tracking requirements, we requested the CVF accounting records
for FYs 2009 through 2011. The FBI OVA provided the expenditure tracking
spreadsheets with quarterly totals for each budget category as well as
documentation to support the totals. The documentation included receipts,
reports from the FBI FMS, purchase order documents, and e-mails.

     Because there was no list of transactions provided to support the
summary totals in the expenditure tracking spreadsheets, we were unable to
reconcile the documentation to the expenditure tracking spreadsheets which

      12
          The expenditure tracking spreadsheet templates were developed in FY 2006 by an
FBI Special Agent who, according to the FBI, was a forensic accountant.

                                           6

are used to account for total CVF expenditures and remaining CVF funding to
determine subsequent year funding levels and request reimbursement from
the OVC. As such, we determined that accounting records were not
adequate for us to conduct our audit work. As a result, for FYs 2009
through 2011, we used the supporting documentation provided by the FBI
OVA to compile detailed accounting data and compare the totals listed in the
spreadsheets to line item transactions. We conducted site work at the FBI
OVA to discuss the detailed accounting data for FY 2009, which consisted of
338 transactions.

       Based on our accounting records and discussions with FBI OVA
officials, we identified three control deficiencies. First, unspent CVF funds
for FY 2009 were not transferred back to the FBI OVA account at year-end.
Since the FBI OVA does not have access to the FBI FMS, FBI OVA officials
must coordinate with the FBI Finance Division to complete all transfers
between FBI accounts. It appears that the FBI OVA either did not perform
adequate year-end reconciliations to identify the unspent funding that had
been transferred into the various FBI FMS accounts to support the Victim
Specialist positions, or was not properly monitoring the funds from the CVF
to ensure that the appropriate account transfers took place. Therefore, CVF
funds were not transferred back into the FBI OVA account at year-end.13

      Second, overtime hours paid from CVF funds were not correctly
calculated and accounted for during FYs 2009 through 2011. While
reviewing the FBI OVA documented overtime, we found inconsistencies
regarding the use of compensatory time off and overtime. According to FBI
OVA officials, the OVC allows Victim Specialists to be paid overtime when
Victim Specialists are called to provide services to victims after regular
working hours. However, FBI OVA officials told us that the OVC has never
made a distinction between the time it takes a Victim Specialist to travel to
where the victim is located and the time spent actually working with the
victim.

      The FBI OVA therefore sought guidance from the FBI Office of the
General Council on whether the Victim Specialists travel time is eligible for
overtime or compensatory time off and subsequently issued a policy for
Victim Specialists addressing different scenarios in which compensatory time
off and overtime should be used. That policy states that employees who are
required to work on a day when work was not scheduled, or who are
required to return to work after having worked their scheduled hours, must
be compensated for at least 2 hours of overtime. Our review of the

      13
           This unspent funding is discussed in more detail below.

                                              7

accounting records found that 48 of the 298 overtime payments in FY 2009
were for less than 2 hours. Of the 48 overtime payments, 19 occurred when
an employee was required to work on an unscheduled work day, or was
required to return to work after completing scheduled work hours. Fourteen
of the 48 overtime payments did not contain adequate documentation for
the OIG to determine if the Victim Specialist was called back to work.
Fifteen of the 48 overtime payments did not meet the requirements of the
policy to receive 2 hours of overtime. Also, during our review of FY 2009
accounting records, we found 9 overtime payments that showed the FBI OVA
recorded overtime in the tracking spreadsheet for more or less time than
what was requested by the Victim Specialist, and 5 overtime payments were
recorded in the wrong fiscal year.

       Third, although the interagency agreement that was established
between the OVC and the FBI to administer the CVF funds requires the FBI
to track and document CVF expenditures, for FY 2009 we identified 47 of
338 transactions totaling $249,000 that were not supported with sufficient
documentation.14 Thirty-five of the 47 transactions were related to field
office expenses even though the FBI OVA requires field offices to submit
receipts for all expenses in order to receive CVF funds.15 The remaining 12
transactions related to expenses incurred centrally by the FBI OVA. Four of
these 12 transactions related to a purchase order for which no support was
provided to show what goods or services were purchased. Three
transactions related to expenses for which the FBI OVA did not provide an
adequate justification. Five transactions did not have proper receipts to
support the transaction. Taken together, these findings indicate that FBI
OVA officials were not properly documenting CVF expenses.

     While compiling the accounting records, we also reviewed
CVF expenses for allowability. Based on our review of the supporting
documentation provided, we did not identify any significant misuse of the
FY 2009 CVF funds with regard to the rules, regulations, and guidelines
governing such expenditures.

The FBI OVA Creation of Accounting Records to More Accurately
Account for FY 2009 CVF Expenses

      FBI OVA officials stated that while they were reviewing the detailed
data we compiled, they became aware that the tracking spreadsheets
      14
           Amounts presented in the report are rounded to the nearest thousand.
      15
          We were unable to determine whether these receipts were missing because they
were not submitted by the field offices or because the FBI OVA did not maintain them.

                                             8

previously provided to the OIG were inaccurate. FBI OVA officials told us
that when the expenditure tracking spreadsheets were initially implemented
in FY 2006, they felt the spreadsheets were complex and consequently
difficult to use and understand, but that the spreadsheets were the only
method of tracking expenditures available at the time. After the FBI OVA
officials reviewed the accounting records during our audit, they told us that
the complexity and lack of understandability had led to the inaccuracy of the
tracking spreadsheets, and they said they had concluded that the
spreadsheets were unreliable.

       FBI OVA officials also told us that because of the inconsistencies
identified with the expenditure tracking spreadsheets, they had used the
supporting documentation and reports from the FBI FMS to create FY 2009
records to more accurately account for the CVF expenditures. As shown in
Exhibit 3, the FBI OVA records identified: (1) CVF expenses for which the
FBI OVA never requested reimbursement from the OVC; (2) unspent CVF
funds that were not transferred back to the FBI OVA account at year-end;
and (3) CVF funds that were transferred into other FBI program accounts
rather than the FBI OVA account.

      We reviewed the records created by the FBI OVA along with all source
documentation. Our review found $221,000 less in unreimbursed CVF
expenses and $23,000 more in unspent CVF funds than the FBI OVA analysis
of the same data.16 Our results are also shown in Exhibit 3.




       16
            The differences between the OIG’s and FBI’s analyses of this data were the result
of the following errors identified in the FBI’s analysis: (1) inappropriately included an FMS
travel account that was not for the Victim Specialist positions; (2) errors in the FBI OVA
formulas used to calculate total unreimbursed expenses and unspent funding;
(3) reimbursed expenses included in the calculation of unreimbursed expenses; and
(4) different totals for compensation and benefits incurred, and expenses for, three field
office transactions.

                                              9

            EXHIBIT 3: COMPARISON OF FBI AND OIG 

          ANALYSES OF FBI-CREATED RECORDS TO MORE 

      ACCURATELY ACCOUNT FOR FY 2009 CVF EXPENDITURES

                                             FBI RECORDS      OIG REVIEW   DIFFERENCE
  TOTAL UNREIMBURSED CVF EXPENSES                  $852,000     $631,000   $(221,000)

  TOTAL UNSPENT CVF FUNDS                           503,000      527,000     23,00017
  TOTAL IMPROPERLY TRANSFERRED CVF
                                                     $4,000       $4,000            -
  FUNDS (UNSPENT)
Source: The OVC and the FBI

       Our review of the FBI OVA created accounting records identified
several internal control deficiencies that resulted in inadequate tracking and
accounting of CVF funds by the FBI OVA. For example, of the $531,000 we
identified in FY 2009 unspent CVF funds, the FBI OVA and the FBI Finance
Division informed the OIG that, at the end of FY 2011, approximately
$277,000 was transferred out of various FBI accounts. However, according
to the Management and Program Analyst at the FBI OVA, all $531,000 of
these funds should have been transferred out at the end of FY 2009 and
included in the FBI’s CVF carryover figure, which did not appear to have
occurred.

       Since the FBI OVA does not have access to the FBI FMS, FBI OVA
officials must coordinate with the FBI Finance Division to complete all
transfers between FBI accounts. At the end of the fiscal year, the FBI OVA
identifies any remaining funds in each of the accounts and requests that the
FBI Finance Division transfer the unspent money back to the FBI OVA
account. Our findings indicate that either the FBI OVA was not properly
performing year-end closing procedures to identify unspent CVF funds and
requesting that the FBI Finance Division return the CVF funds to the FBI OVA
account, or that it was not properly monitoring CVF funds to ensure that it
maintained an accurate record of expenditures to ensure that the
appropriate account transfers took place. Due to these inadequacies in the
FBI OVA’s tracking system and the FBI OVA’s lack of oversight over the
CVF funds, the $531,000 in unspent CVF funds remained idle in various FBI
accounts for 2 years. Additionally, because the unspent $531,000 in CVF
funds were not returned to the FBI OVA account, $4,000 in CVF funds were
mistakenly transferred to other FBI program accounts rather than the FBI
OVA account, where they could have been used for unrelated purposes.



      17
           Differences in amounts are due to rounding.

                                            10 

      Our review of the FBI OVA-created accounting data also identified an
additional $110,000 in expenses listed in the FBI OVA created accounting
data that the FBI OVA had not provided supporting documentation for when
we originally requested the accounting records. This includes
approximately: (1) $14,000 paid to UNICOR for equipment, (2) $26,000
paid centrally by the FBI OVA for supplies under a purchase order,
(3) $3,000 paid for computer equipment, (4) $7,000 paid for installation and
accessories costs, and (5) $60,000 paid under purchase orders for which it
was unclear what services were provided.

      FBI OVA officials have indicated that they believe similar issues exist
with FYs 2010 and 2011 accounting of CVF funds. We have recommended
that the FBI perform similar analyses as in FY 2009 for FYs 2010 and 2011.

Accounting Improvements in FY 2012

       In July 2011, the FBI OVA hired a new Management and Program
Analyst who has implemented a new tracking system for FY 2012 using a
third party accounting software. The new system allows the FBI OVA to
record expenses by line item rather than quarterly totals which could allow
the FBI OVA to more accurately track and document CVF expenditures.18
Additionally, the FBI OVA officials informed us that they updated its policy to
eliminate transfers to field offices based on estimates; therefore, CVF funds
are only dispersed to field offices for costs already incurred. However,
according to FBI officials, the FBI will be replacing the FBI FMS with the
Unified Financial Management System. The new system will be fully
implemented in FY 2014 and will not allow the FBI OVA to pay for travel
centrally. As such, the FBI OVA will again have to transfer estimates to the
field offices to cover travel expenses.

IMPROPER REPORTING OF FBI EXPENSES TO THE OVC FOR
REIMBURSEMENT UNDER THE INTERAGENCY AGREEMENT

      As previously mentioned, CVF funds remain at the OVC until the FBI
requests reimbursement for expenses incurred by the Victim Specialists. On
a quarterly basis, the FBI requests an amount from the budget department
within OJP to reimburse the FBI for Victim Specialist expenses.19 According
to the interagency agreement, for each reimbursement request, the FBI

       18
           Because a complete year of accounting data from the new system was not
available at the time of our audit, we did not perform an evaluation of the new system.
       19
           The OVC is the administrator of the CVF funding. However, OJP facilitates the
transfer of funding on behalf of the OVC.

                                            11 

must provide the OVC with supporting documentation that clearly shows a
breakdown of expenses that equals the sum of the reimbursement amount.
The quarterly reimbursement is then transferred from OJP through the
Treasury Department to the FBI.

       Our review of the FBI OVA expenditure tracking spreadsheets, source
documentation, and the FBI Finance Division reimbursement spreadsheets
found that that the total reimbursements requested from the OVC were
inaccurate due to the deficiencies in the internal controls over the CVF funds
and inadequate coordination between the FBI OVA and FBI Finance Division.
Overall, the FBI failed to request reimbursement for $631,000 in expenses
incurred to support the Victim Specialist positions. Of the $631,000,
$154,000 was related to compensation and benefits expenses. It appears
not all Victim Specialists were included for reimbursement.

        The FBI Finance Division is responsible for reimbursement requests
and all reporting requirements to the OVC under the interagency agreement.
According to the accounting analyst within the FBI Finance Division who
facilitates the FBI OVA agreement, the FBI Finance Division: (1) reports the
total quarterly and annual expenses to the OVC for reimbursement, (2) at
the FBI OVA’s request, transfers CVF funds from the FBI OVA account to
other FBI accounts to support Victim Specialist costs, (3) at the FBI OVA’s
request, transfers unspent CVF funds from the travel account, training
account, overhead accounts, and field offices accounts back to the FBI OVA
account at year-end, and (4) rolls over any CVF funds remaining under a
purchase order after it is closed, all services are performed, and expenses
are incurred. The accounting analyst within the FBI Finance Division also
stated that, because the FBI Finance Division is responsible for other
reimbursable agreements, it does not have intimate knowledge of each
program. Rather, the FBI Finance Division is the liaison between various FBI
accounts and the OVC to ensure programs are funded. The analyst stated
that the FBI OVA is ultimately responsible for properly tracking program
expenses to ensure the FBI Finance Division accurately reports CVF
expenses to the OVC.

      To meet these obligations, the FBI Finance Division maintains its own
spreadsheets to track the total funding available, the total expenses incurred
for the year, and the total amount reimbursed by the OVC for each quarter.
The information used to create the reimbursement spreadsheets is provided
by the FBI OVA, either directly in the case of payroll information, or through
the FBI Finance Division’s verification with the FBI OVA that the FBI FMS
reports accurately reflect incurred expenses. These spreadsheets are
provided to the OVC to support each reimbursement request. In addition,

                                      12 

the FBI OVA provides quarterly compensation and benefits amounts to the
FBI Finance Division because the FBI Finance Division does not have access
to personnel data. The FBI OVA requests this data from the personnel
department, which generates a report from the Bureau Personnel
Management System (BPMS). The FBI OVA reviews the report to ensure all
Victim Specialists are included and provides the report to the FBI Finance
Division.

       While reviewing the FY 2009 accounting records, we requested and
received the Victim Specialists’ compensation and benefits data for FY 2009.
We compared the total compensation and benefits paid in FY 2009 to the FBI
Finance Division’s requested reimbursement from the OVC and found that
the FBI Finance Division had under requested reimbursement for
compensation and benefit expenses to the OVC by approximately $154,000.
Based on our review, it appears that the report generated by the BPMS,
which was used to request reimbursement, did not include all Victim
Specialists, suggesting that the FBI OVA did not adequately review the BPMS
reports, the FBI Finance Division’s requests to OVC, or both. In addition,
due to deficiencies in internal controls over the CVF funds, including
insufficient monitoring of CVF funds and inadequately supported CVF
expenses, the accounting and tracking of incurred expenses was inaccurate.
As such, the FBI OVA provided the FBI Finance Division inaccurate
information. We also found instances where the FBI Finance Division
requested less funding than the total actual expenses listed in the
reimbursement spreadsheets. FBI Finance Division officials were unable to
explain why they would have requested less funding than the incurred
expenses.

       Ultimately, the amounts reported to the OVC were not accurate.
Based on the FBI OVA’s accounting for the FY 2009 CVF expenditures, we
determined that the FBI had approximately $631,000 in Victim Specialist
expenses that were never requested for reimbursement from the OVC.20
This includes the approximately $154,000 in compensation and benefits
expenses discussed above, as well as an additional $206,000 in overhead
costs; $47,000 in travel expenses; $218,000 in miscellaneous services; and
$7,000 in field office expenses. Although the total unreimbursed amount
was 4 percent of the overall value of the CVF funding level in FY 2009, we
believe that the deficiencies with the accounting system and coordination
between the FBI Finance Division and the FBI OVA, if not addressed, create
the potential that actual CVF expenditures will be materially misstated in the
future.

      20
           The difference in the total amount is due to rounding.

                                             13 

Reimbursement System Improvements in FY 2012

       As previously stated, the new Management and Program Analyst in the
FBI OVA implemented a new tracking system for use beginning in FY 2012
that allows the FBI OVA to record expenses by line item rather than
quarterly total. Using this new system, the FBI OVA provides information
directly to the FBI Finance Division on total amounts that need to be
reimbursed. The FBI Finance Division, therefore, no longer generates
reports from the FBI FMS to verify with the FBI OVA as all reimbursement
amounts are now supplied by the FBI OVA. If properly implemented, we
believe that this new process could allow the FBI to more accurately request
reimbursements from the OVC for CVF expenses incurred.

INACCURATE REPORTING OF TOTAL EXPENDITURES TO THE OVC

      In addition to tracking and documenting CVF expenditures, the
interagency agreement between the OVC and the FBI also requires the FBI
to provide final financial accounting to the OVC detailing the expenditure of
funds for the fiscal year, and to report a figure for any remaining funding
that will carry over into the next fiscal year.21 Due to the inadequate
internal controls over the CVF funds, we found the FBI over reported total
expenditures to the OVC in FY 2009 by approximately $354,000 and,
therefore, under reported the carryover amount to the OVC by the same
amount. Because annual accounting of CVF expenses and unspent funding
is used to determine subsequent CVF distribution amounts, the FBI’s
inaccurate reporting of expenses and carryover amounts potentially affected
the amount of CVF funding it received in subsequent years, as well as the
amount of CVF funding that was allocated to state and local programs after
the FBI received its distribution amount.

      Reporting accurate total expenditure of funds for the year to the OVC
allows the OVC to evaluate the cost of supporting the program for the year
and assists the OVC in determining appropriate funding levels to support
subsequent year activities. At the end of FY 2009, the FBI OVA reported
approximately $1,498,000 in carryover, which represents the FY 2009 CVF
funds that remained unspent at the end of the fiscal year. FBI officials were
unable to provide support for the carryover figure reported to the OVC. In
order to evaluate the accuracy of the reported figure, we reviewed the
records created by the FBI OVA to more accurately account for the FY 2009

      21
           The carryover amount is an estimate based on the accounting records at the time
of reporting.

                                           14 

CVF expenditures and found that the FBI’s total CVF expenditures in FY 2009
were approximately $12,790,000. The FBI’s total available funding for
FY 2009 was approximately $14,641,000, meaning the carryover reported to
the OVC should have been $1,851,000, not $1,498,000. By under reporting
the carryover amount to the OVC by approximately $354,000 for FY 2009,
the FBI received approximately $354,000 more in new CVF funds in FY 2010
than they otherwise would have.22 Additionally, because the OVC uses the
total carryover amount from the previous year to determine the funding
levels received by the FBI in the subsequent year, and the annual
distribution of new CVF funds to the FBI is made before the state and local
victim assistance programs, inaccurate reporting by the FBI potentially
affects the amount of funding provided to state and local programs in
subsequent years. In fact, 21 percent of the states and territories were
awarded less than $354,000 in funding in FY 2010 from the state victim
compensation grants.

      Although the total amount of carryover reported to the OVC was only
under reported by 2 percent of the FBI’s total CVF distribution amount, we
believe the deficiencies with the accounting system and controls in place at
the FBI, if not addressed, create the potential for material misstatements to
occur in the future.

      We also asked the OVC officials what financial accounting data is
provided by the FBI to adhere to the interagency agreement requirements to
provide detailed financial accounting of CVF expenses and report a carryover
amount for remaining funding. We were informed that the FBI Finance
Division’s reimbursement spreadsheets are provided to the OVC as the
accounting records. We reviewed the reimbursement spreadsheets and
found that the spreadsheets provide quarterly expenditures that have been
reimbursed by the OVC by budget category without providing adequate
details about what expenses comprise those totals. For example, the total
expenditures listed under miscellaneous other services for FY 2009 was
approximately $762,000, of which the FBI received approximately $566,000
in reimbursement, but the spreadsheets offer no detail regarding what the
miscellaneous office expenses included. We also found total incurred
expenses of approximately $108,000, which was reimbursed by the OVC, on
the reimbursement spreadsheet in FY 2009 that did not have a description
other than an FBI accounting code. Without adequate accounting
information, the OVC cannot ensure CVF funds are being utilized in
accordance with all rules, regulations, and guidelines. We therefore believe


      22
           Differences in amounts are due to rounding.

                                            15 

the OVC should have required the FBI to provide it with more detailed
financial accounting records, as required by the interagency agreement.

Reporting Improvements in FY 2012

      As previously stated, the FBI OVA now provides reimbursement
request amounts directly to the FBI Finance Division which can be reported
to the OVC. The amounts are based on the FBI OVA line item accounting
records which could more accurately account for the annual CVF
expenditures and any remaining CVF funds.

CONCLUSION

       Mismanagement, misuse, and non-use of CVF funds decreases the
amount of assistance that reaches victims of crime. Our review of the FBI’s
accounting and reporting of CVF funds found inadequate internal controls to
ensure the FBI is in compliance with the requirements under the interagency
agreement. Specifically, we found CVF funds that were not properly tracked
and documented in FY 2009, which resulted in approximately $631,000 in
CVF expenses for which the FBI never received reimbursement;
approximately $527,000 in unspent CVF funds that remained idle in the FBI
accounts for 2 years; and $4,000 in unspent CVF funds that were improperly
transferred to other FBI program accounts. These deficiencies created the
potential for CVF funds to be improperly expended either at the field office
level or by other sections of the FBI.

       As a result of the inadequacies related to the tracking system,
quarterly and annual CVF expenses, as well as the annual carryover
amounts, were not accurately reported to the OVC. The carryover amount
was under reported by approximately $354,000. Although the total amount
of carryover reported to the OVC was under reported by just 2 percent in
relation to overall value of the FY 2009 CVF distribution amount, we believe
that the deficiencies with the accounting system at the FBI create the
potential for material misstatements to occur in the future. Moreover,
because annual accounting of CVF expenses and remaining funds are used
to determine subsequent year CVF distribution amounts, inaccurate
reporting of expenses results in the FBI not receiving the appropriate
amount of money from the CVF. In addition, because the VOCA directs that
CVF funds be distributed to the state and local programs based on available
funding after the FBI receives its annual distribution, the improper
accounting of expenses by the FBI potentially affects the funding levels
received by state crime victim programs.


                                     16 

       In FY 2012, the FBI implemented a new tracking system that we
believe could address some of the problems identified in this report. We
make three recommendations to the FBI to help ensure the FBI implements
adequate internal controls for accurately accounting for and reporting CVF
expenses.

RECOMMENDATIONS

We recommend that the FBI:

  1. Perform analysis for FYs 2010 and 2011, similar to the analysis
     conducted for FY 2009, to identify and remedy unspent funds, unbilled
     expenses, and improperly transferred funds.

  2. Implement internal control procedures over the CVF funds to ensure
     the FBI is in compliance with all rules, regulations, and guidelines
     related to the administration of CVF funds. This includes developing
     year-end closure procedures that ensure unspent CVF funds are
     transferred back to the FBI OVA account and expenditures are properly
     reported to the OVC.

  3. Enhance the coordination efforts between the FBI OVA, FBI Finance
     Division, and OVC to ensure CVF funds are properly tracked and
     reported. This includes developing procedures to address any future
     concerns that arise between the OVC and FBI regarding the FBI’s
     compliance with the interagency agreement requirements.




                                    17 

              STATEMENT ON INTERNAL CONTROLS


      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to prevent or detect in
a timely manner: (1) impairments to the effectiveness and efficiency of
operations, (2) misstatements in financial or performance information, or
(3) violations of laws and regulations. Our evaluation of the Federal Bureau
of Investigation’s (FBI) internal controls over funds from the Crime Victims
Fund (CVF) was not made for the purpose of providing assurance on their
internal control structures as a whole. The FBI’s management is responsible
for the establishment and maintenance of internal controls.

      As discussed in our report, the FBI needs to improve its internal
controls to ensure the FBI is in compliance with all rules, regulations, and
guidelines related to the administration of CVF funds and to ensure that the
FBI accurately and reliably tracks and reports CVF expenditures.

      Because we are not expressing an opinion on the internal control
structure of the FBI as a whole, this statement is intended solely for the
information and use of the auditee. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.




                                      18 

                  STATEMENT ON COMPLIANCE

                 WITH LAWS AND REGULATIONS 



      As required by the Government Auditing Standards, we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices to obtain reasonable assurance that the
FBI’s management complied with federal laws and regulations for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. The FBI’s management is responsible for ensuring compliance
with federal laws and regulations applicable to the Department of Justice. In
planning our audit, we identified the following laws and regulations that
concerned the operations of the auditee and that were significant within the
context of the audit objectives:

     42 U.S.C. §§ 10601-10607 (2006)
     18 U.S.C. § 3771 (2006)
     28 C.F.R. §45.10 (2012)

       Our audit included examining, on a test basis, the FBI’s compliance
with the aforementioned laws and regulations, and whether non-compliance
could have a material effect on the FBI’s operations. We did so by
interviewing auditee personnel, assessing internal control procedures, and
examining accounting records. Except for the instances of noncompliance
identified in this report, we did not identify any other instances of
noncompliance with the laws and guidelines we reviewed.




                                     19 

                                                             APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      The objectives of this audit were to: (1) evaluate whether the Federal
Bureau of Investigation’s (FBI) CVF funds were used in accordance with
applicable guidelines; and (2) evaluate the adequacy of current internal
controls, policies and procedures, and coordination efforts of the FBI and the
Office for Victims of Crime (OVC) to ensure the funds from the CVF were
completely and appropriately accounted for.

Scope and Methodology Section

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      To assess the design and implementation of the FBI’s internal controls
over the CVF funds, we identified applicable rules, regulations, and
guidelines, reviewed the FBI’s policies and procedures for administering the
funds, and interviewed officials at FBI Headquarters, the FBI’s Denver Field
Office, and the OVC. We also tested those internal controls that we
considered significant within the context of our audit objectives.

      Our audit generally covered, but was not limited to, fiscal year
(FY) 2009 and included the FBI and the OVC. During our preliminary audit
work, our scope covered FYs 2009 through 2011. Based on the initial
accounting information provided by the FBI Office for Victim Assistance
(OVA) for FYs 2009 through 2011, we determined that accounting records
were not adequate for us to conduct our audit work. As a result, for
FYs 2009 through 2011, we used the supporting documentation provided by
the FBI and compiled detailed accounting data. We conducted site work at
the FBI to discuss the FY 2009 detailed accounting data. The FBI OVA and
the Office of the Inspector General (OIG) determined that the accounting
records initially provided by the FBI were unreliable. At that time, we


                                     20 

refocused our audit work on the issues identified during our review of the
FY 2009 accounting records, which, according to FBI OVA officials would
likely be present in the FYs 2010 and 2011 account records as well.

      Our analyses used the FBI OVA expenditure tracking spreadsheets with
quarterly totals for each budget category as well as documentation to
support the totals and the FBI Finance Division reimbursement
spreadsheets. The documentation included receipts, reports from the FBI
Financial Management System (FMS), purchase order documents, and
e-mails.

Inadequate FBI System for Tracking CVF Expenditures

       To ensure the FBI was in compliance with the accounting and reporting
requirements of the agreement between the OVC and the FBI, we requested
accounting records for all CVF funds for FYs 2009 through 2011. As
described in the Overview of the FBI System for Tracking and Documenting
CVF Funds section of this report, the FBI OVA tracked CVF expenses using a
spreadsheet that provides quarterly summary totals of expenditures by
budget category that did not include specific line item transactions with
dates, descriptions, and amounts. Most of the data to support the summary
totals is in hardcopy form rather than electronic form. For FYs 2009 through
2011, we were provided spreadsheets with quarterly expenditure totals by
budget categories. To support the totals we were also provided supporting
documentation in the form of receipts, e-mails, purchase order documents,
transfer forms, reports from the FBI FMS for various applicable FBI accounts,
and compensation and benefit data from the FBI’s Bureau Personnel
Management System (BPMS).

      We attempted to compare the supporting documentation provided to
the tracking spreadsheets. However, the lump sum amounts listed for each
budget category and quarter did not include a list of individual transactions
that were included in the total amount. Therefore, we were unable to
determine what supporting documentation corresponded to each lump sum
amount. In order to verify that the FBI was administering the CVF funds in
accordance with all applicable criteria, we needed detailed accounting
records showing each expense incurred. We determined that the FBI’s
accounting records were not adequate to conduct the necessary audit work.
Therefore, we used the supporting documentation provided by the FBI OVA
and compiled detailed accounting data, which included, for each transaction,
the date the expense was incurred, the amount, and a description of the
expense.


                                     21 

       For the transfers made to the FBI accounts for travel, training, the
Safeguard Program, and overhead expenses, the only support provided was
a transfer request form for an estimated amount to cover Victim Specialist
costs. For these budget categories, we entered the transfer amount into our
accounting records. For transfers made to the field offices, we found that
the transfers were either for estimated amounts or to reimburse the field
office for actual amounts. For the estimated amounts transferred, no
additional support was provided documenting the actual amount incurred;
therefore, we entered the estimated transfer amount into our spreadsheet.
For Victim Specialist overtime, we were provided spreadsheets detailing the
name of the Victim Specialist, the date of overtime, the amount of overtime,
the description of services provided. To support the spreadsheets we were
provided e-mail correspondence between the Victim Specialist requesting
overtime for hours worked in addition to regular work hours and approval
from management. Once we compiled the records with the support provided
by the FBI OVA, we provided the FY 2009 records to the FBI and conducted
site work at the FBI OVA to discuss the detailed accounting data and to
address questions that arose during our review. Based on discussions with
the FBI OVA during our site work, the FBI OVA and OIG determined that the
tracking spreadsheets were unreliable.

       FBI OVA officials also told us that because of the inconsistencies
identified with the tracking spreadsheets, they used the supporting
documentation and reports from the FBI FMS to create FY 2009 records that
more accurately accounted for the CVF expenditures. These records
provided for each budget category and FBI account quarterly totals of
expenditures incurred, the total amount reimbursed by the OVC, expenses
that the FBI had never requested reimbursement, the total CVF funds that
remained unspent, and the amount of CVF funds mistakenly returned to the
wrong FBI account. We reviewed records created by the FBI OVA along with
all source documentation provided by the FBI OVA to verify the amounts.

Improper Reporting of FBI Expenses to the OVC for Reimbursement
under the Interagency Agreement

      To determine if the FBI was properly reported CVF expenses for
reimbursement from the OVC, we compared the total expenditures for
FY 2009 per the verified records created by the FBI OVA to more accurately
account for the FY 2009 CVF expenditures with the amount the FBI had been
reimbursed from the OVC. From data received during our review of FY 2009
accounting records, we compared the total compensation and benefits paid
in FY 2009 to what the FBI Finance Division had requested reimbursement


                                    22 

from the OVC to ensure all Victim Specialist positions compensation and
benefits had been reimbursed.

Inaccurate Reporting of Total Expenditures to the OVC

       To determine if the FBI had properly reported total expenditure of
funds to the OVC, we compared the remaining funding figure, or carryover
amount, reported to the OVC for FY 2009 with the carryover amount
reflected in the FY 2009 records created by the FBI OVA to more accurately
account for the FY 2009 CVF expenditures. The carryover amount for
FY 2009 represents the difference between the total CVF funding available to
the FBI for FY 2009 and the total expenditures for FY 2009 reflected in the
verified records created by the FBI OVA.




                                    23 

                                                                                          APPENDIX II

THE FEDERAL BUREAU OF INVESTIGATION’S
 RESPONSE TO THE DRAFT AUDIT REPORT




                                                     U.S. Depart ment of JUl tK:e

                                                     Federal Bureau of Investigation


                                                     Washington, D. C. 20535·0001

                                                      September 17, 20 13


The Hono rable Michael E. Horowitz
Inspector General
Office of the Inspecto r General
U. S. Department of Justicc
950 Pennsylvania Avenue, N.W.
Washington, DC 20530

Dear M r. Horowitz;

       The Federal Bureau of Investigation (FBI) appreciates the opponunity to review and
respooo to your officc's Tepan entitled, Alldil ofthe Federal Bureau of Investigation's
Accounting anti Reporting of Funds Distributed From the Crime Victims Fllnt/.
         While we acknowledge there are areas of financial accounting and reponing that needed
improvement, we are pleased your Repon did not find any evidence or intentional misuse by the
FDI of the C rimes Victims Fund (CVF). Rather, as detennined by your auditors, "In FY 2012,
after the elose of our audit period, the FBI implemented a new tracking system that allows for
more detailed recording of expenses .. .." In that regard, we concur with your three
recommendatio ns and have already taken steps to implement remedial actions.

        Although your repon briefly mentions the broad responsibilities of the FBI's 134 Victim
Specialists, it does not mention nor highlight the accomplishments of the FBI's Office of Victim
Assistance (OVA) for a reader to fully grasp the magni tude of what the FBI has accomplished
with the CVF.

        The FBI's OVA was established in December 200 1 to ensure an operationally robust and
timely response to victims identified as part of investigations conducted by the FBI. These
investigations include but are not limited to; violent crimes, crimes on government installations
and Indian reservations, sexual assault, criminal civil rights violations, exton ion, child abuse and
exploilftion, kidnapping, crimes aboard aircraft and criminal aviation and rai l disasters, hostage­
taking, torture, international parental kidnapping, murder for hire, carjacking, Internet child
exploitation, human traffICking, computer intrusion, Medicaid fraud and other financial crimes,
interstate stalking, international and d0'JIestic terrorism, and vio lent bank robberies. A




                                                 24 

 Govenunent Accountability Office study indicated that the FBI assists 50 percent mo re victims
 than do all of the other federal investigative agencies combined.

        FB I Victim Specialists, located tltroughout our 56 field offices, respond to crime scenes
to provide crisis intervention. arrange for emergency services, keep victims infonned, assist them
with accessing resources such as State crime victims compensation programs and mental health
counseling, and provide support victims at trial. Five Child/Adolescent Forensic Interviewers
are regionally dispersed to conduct legall y sound, trauma-infonned, and developmentally
appropriate interviews with child victims and witnesses in some of the most difficult and
complex investigations. Two of these individuals work almost exclusively in Indian Country.

        In addition, the Terrorism and Special Jurisdiction Team (TS]P) based at FBI
Headquarters is a cutting edge program that delivers immediate and specialized services to
United States citizens who are victims ofterrorism. hostage taking, and kidnapping in foreign
countries and also to victims of mass violence within the us. Victim Assistance Rapid
Deployment Teams. consisting ofTS]P employees and the most expe rienced and highly trained
field office Victim Specialists, are able 10 respond to federal crimes of mass violence and also to
support state and local agencies even when the crime is not a federal violation. The FBI has
developed extensive experience in assisting with mass casualty cases through the combined
e)(perience of its staff and responding to incidents such as the shootings at the Red Lake
Reservation, Virginia Tech. Fort Hood. Binghamton Immigration Center, Tucson, and Newtown
as well as the recent bombings at the Boston Marathon. Although chronically understaffed for
an agency the size of the FBI, the Victim Assistance Program has proven to be highly effective
in meeting the needs of victims and is widely viewed as the model for law enforcement-based
victim assistance.

        In any given year, FBI victim assistance employees deliver an average of204,000
services to victims. These services include but are not limited to providing crisis intervention at
crime scenes, emergency travel and housing, food assistance, death notification, transporting
child victims to forensic interviews and for sexual abuse examinations, arranging mental health
counseling and other resources, returning personal property to victims, providing updates on the
status of the investigation, and accompanying victims to court.

        Each year, a handful of FBI Child/Adolescent Forensic Interviews conduct 480-550
interviews with child victims and witnesses in the most serious cases across the country and train
tho.usands of federal, state, local, and tribal criminal justice personnel. They also conduct
interviews with developmentally delayed adult victims and with young adults whose sexual
victimization as children was discovered years later as the result of the recovery of child
pornography images by law enforcement.

        The Child Pornography Victim Assistance Program (CPVA) serves as central federal
repository and coordinating entity for information penaining to several thousand identified child
victims whose images have been traded on the Internet by criminals across the world. The
purpose is to provide mechanisms for victims and their parents to receive notification about cases
involving a child's images on their own terms and without being inundated by repetitive contacts




                                                25 

and requests for their basic information from thousands of officials. Additionally, the CPVA
ensures that child victims and their parents have access to assistance services to help them cope
with the ongoing victimization associated with distribution of images oftheir sexual abuse.

FY 2009 Highlights

      •   The FBI OVA initiated a pilot project involving its first therapy dog to support child and
          other vulnerable victims through investigative processes, such as interviews and sexual
          assault examinations. The therapy dog was a valuable asset during the post-recovery
          investigation and reunification of a young girl who was kidnapped, held hostage for
          almost two decades, and bore two children as the result of being raped by her captor.

   •      The FBI coordinated intensive crisis services to more than 130 US citizens who were
          directly affected by the terrorist attacks in Mumbai, India, including repatriation of
          victims' remains, medical evacuation of injured victims, emergency travel and support as
          victims returned to the US, recovery of personal property left behind, and help in locating
          relevant counseling.

   •      The OVA played a key role in the reunification of hostages held by terrorist groups
          around the world, including the Captain of the pirated ship Maersk Alabama.

   •      To address victim notification and assistance in the large scale investigations into Bernie
          Madoff and the Stanford Group, the OVA work ed with the FBl Office of Public Affairs
          to create websitcs for victims and to solicit infonnation from victims to document their
          losses.

          In preparation for the takedown of a human labor trafficking operation, the OVA worked
          with the field office Victim Specialist to deploy additional personnel to support victims,
          worked with a non-gove rnmental organization to arrange housing, and to coordinate
          services to all 41 victims, to include medical screenings, mental health assessments, and
          crime victims' compensation.

   •      As part of the investigation into the long-term sexual, physical, and psychological abuse
          and interstate transportation of young girls by a religious Jeader, Victim Specialists across
          the country coordinated extensive services and support to all of the victims and their
          parents or guardians. The suppOrt continued during the prosecution and trial, ensuring
          that victims were able to testify and move forward \\lith their lives.

  •       On-scene assistance by the FBI OVA was sought by the police department immediately
          following the shooting at the American Civic Association Center in Binghamton, NY
          (April), 2009). Almost all of the victims, both injured and killed, were immigrants
          whose families needed assistance in traveling to the US or repatriating remains to their




                                                   26 

       home countries. The FBI OVA made arrangements and provided a total ofS98,998 in
       emergency assistance services to these families.

FY 2010 Highlights

The OVA provided a range of critical services to victims in numerous terrorist attacks, including:

   •   Victim Specialists in the field played key roles in assisting young victims of domestic sex
       trafficking, coordinating with state and local agencies to either reunite them with family
       members or find residential treament and independent liv ing programs. Victim
       Specialists helped victims obtain copies of school records so they could enter OED
       programs, located transportation assistance, helped them access mental health services,
       and even helped some teenagers with removing tatt oos that identified them as belonging
       to a certain pimp. One victim wrote to the Victim Specialist, "Thank you/or everything
       you hm>e done/or me. /fit wasn't/or you, 1 wouldn't be the person 1 am today. Themk
       you/or yoW' support!"

   •   Families of missing/abducted children found immense comfort and support in the
       presence and assistance of FBI Victim Specialists, even if the outcome was a
       heartbreaking o ne. T he mother of one victim wrote, "1 can see in your eyes that you
       really care about us and 1find com/art in what you say. Knowing you are close by and
       have things covered really helps me stay sane. "

   •   The bombings in Kampala, Uganda on luly 11,20 10, severely injured six Americans and
       killed one. The OVA supported fami lies in the US and vict ims while they remained in
       Kampala or in hospital in South Africa. The OVA coordinated and paid for medical
       evacuation, emergency family travelllodging, and repatriation of remains, and the
       international calls, at a cost of$249,240. A 1S-year-old victim required a two-step
       medical evacuation - first from Kampala to South Africa for stabilization and several
       weeks later from there to lohns Hopkins in Baltimore, MO. This assistance was
       instrwnental in saving her leg.

   •   When six peop le were killed during an anack by the Taliban o n miss ionarie s in
       Badahkhshan, Afghanistan, the OVA provided immediate support and assistance 10
       families and assisted with repatriation of victims' remai ns, travel assistance for family
       members, and specialized cleaning and decontamination of personal effects.

   •   The OVA provided ongoing sUJ:port services to families of several Americans who were
       taken hostage and tortured in Iraq and Africa and also provided intensive post-recovery
       lUpport to the vielims, includ ing crisis mental ~alth service" specialitcd medical CIIJ'S
       and reintegration services. An OVA clinical social worker traveled to Kenya to provide
       on-site assistance to one recovered hostage to help him stabilize and support him through
       investigative interviews.




                                                27 

    •   The OVA was asked to supplement the Department of Defense (000) response to the
        shootings at Fon Hood by providing Victim Assistance Rapid Deployment Team
        members and to assist family members with emergency needs not covered by DOD. For
        instance, 000 Vl()uld provide assistance to the spouses of service members who were
        killed or injured but not parents or siblings. As with most mi litary installations the
        service members and their families are rarely from that area. Outpatient medical care for
        a severely injured service member was covered by OOD but no t his tl1U1sponation 10 the
        treaunent fac ility.


    •   When a lone gurunan entered the lobby at Discovery Communications in Silver Spring,
        Maryland, and took three employees hostage, the OVA was asked to provide suppon to
        managers and employees as well as with the hostages following their release. An OVA
        Victim Services Manager responded to the scene, provided crisis intervention, and he lped
        executives plan for the next weeks and months.

    •   The OVA led the victim response when a disgrunt led individual flew a private plane into
        the side of an Internal Revenue Service (IRS) building in Austin, Texas, killing one,
        damaging the building, and traumatizing over 100 employees. OVA staff provided
        information on coping to all err.ployces. assisted the family of the deceased employee,
        and linked the IRS management with a disaster management vendor to assist in cleaning
        and restoring government propeny and personal effects within the building.

   •    OVA employees responded to Santo Domingo to assist the State Depanment and the
        Department of Defense wi th evacuating American victims of the earthquake that
        devastated Haiti, and also assisled with the identification of deceased victims.

FY 201 1 Highlights

Victim Specialist and OVA special program employees provided more than 220,000 services to
victims. More than a third of these services were provided after the case had been indicted. The
following are examples of the types of work performed:

   •    A Native American infant was brutally shaken by his father resulting in devastating brain
        injuries. The assault was wi tnessed by twO siblings. The Victim Specialist worked with
        tribal social services to identify other family members and provided extensi ve crisis
        suppon services to family members at the hospital, including emergency travel and
        lodging. She also arranged for the two older children to be interviewed and provided
        with assistance. The Victim Specialist was instrumental in getting the infant victim
        established in a local nursing home for continued care and mai ntained communication
        n:garding the inve$tigation and the baby's care. An fDI agent working in Indian Country
        wrote, "This year Iws bun a parliculaTly hard with baby deaths and slwktn baby cases.
        Our Victim Specialist Iws literally lived at hospitals helping the victims, helping me,
        helping nerybody. ..




                                               28 

•   An 80 year old victim sen! over $100,000 to Jamaican telemarketers in a six month
    period. An FBI Victim Specialist met with her to educate her about the dynamics of
    fraud, assisted her in changing her phone number, linked her with Adult Protective
    Services and other social services to provide her with support and reduce her isolation,
    and facilitated conversations between the victim and her adult son to make him aware of
    the situation.

•    A Victim Specialist responded to the scene of a chlld abduction and provided almost
    continual support and assistance for a six day period. She relocated the family to a hotel
    for privacy and kept them infonned of case developments. When the child was found
    deceased, the Victim Specialist provided in-person death notification to family members
    in three locations and autopsy infonnation, transportation assistance, help with applying
    for crime victims' compensation funds to cover the cost of funeral and burial, support
    during media interviews, and other crisis support services.

•   The OVA led the response to the victims of the shooting at a Safeway in Tucson that
    involved the assassination and attempted assassination of U.S. government officials,
    includi ng a federal judge and Congresswoman Oifforos. The OVA sent two Victim
    Assistance Rapid Deployment Teams consisting of 15 victim experts, including a
    forensic operations manager and an operational psychologist, to provide assistance to
    families of the deceased and injured in hospitals. The assistance included crisis
    counseling, emotional support, funeral planning assistance, infonnation and help in
    attending memorial events, and assistance with investigative case briefings. They also
    closely coordinated with local agencies and victim service providers. Few of the victims
    were actually life-long Tucson residents so most had family members living across the
    country. The FBI OVA provided emergency travel assistance to more than 50 family
    members. The FBI also paid for the cost of transporting the remains of one victim back
    to her family home and for processing of a large number of personal effects from the
    scene and from remains of victims.

•   When the American sailing vessel was hijacked by Somali pirates in the Gulf of Aden,
    the OVA deployed Victim Spt:cialisl~ to support the fi:UJlilies of each of the four victims
    while OVA employees staffed the Command Post. A plan was established for
    coordinated death notification by FBI personnel and OVA employees worked with DOD
    to return the victims to Dover Port Mortuary for autopsy, also collecting ante-mortem
    infonnation needed for identification. Extensive crisis intervention services were
    provided to families , and hundreds of personal effects from the ship were retrieved by the
    OVA, sorted, cleaned, and presented to family members.

•   Arid Uka opened fire on a bus filled with U.S. Air Force (USAF) service personnel at the
    Frankfurt Airport, killi llg two and severely injuring two. OVA worked closely with the
    USAF casualty assistance officers to assist fami lies and victims. During the German




                                            29 

        trial, the OVA linked victims with attorneys provided by the court to represent their
        interests. The OVA also arranged for the translat ion of ten court summaries provided by
        the Gennans and ensured that victims/families received the summaries in a timely
        manner.

    •   Additionally, the OVA provided extensive support and services to families and recovered
        victims of overseas kidnap and hostage-taking, including two long-term cases involving
        minor victims and torture. A Victim Specialist worked closely with the family of an
        adolescent boy whose finger had been cut off by his captors and sent to his family. lbe
        OVA used emergency funds to transport the victim and a family escort back to the U.S.
        upon his recovery, located medical and mental health specialists with expertise in treating
        tonure victims, and helped the family apply for crime victims· compensation to assist
        with these expenses.

   •     FBI Victim Specialists supported 9111 families during interviews conducted by military
        commissions prosecutors. One of them wrote, "The interviews were difficult but
        successful and could not have bun conducted without the assistance ofall ofyou. Your
        professionalism and kindness was greatly appreciated during the interaction with the
        families. Thefamities all commented on how well they were treated by the FBI"

        As demonstrated above, the FBI's Victim Specialists are critical to the FBI's mission.
No one could have envisioned the volume of tragedies the FBI's Victim Specialists have
commendably responded to during the years covered by the audit. As illustrated through our
recent acquisition of a new tracking system, the FBI continues to evaluate and strategizc on ways
to improve the ac<:ounting and reporting of the CVF monies.

        Should you have lilly questions, feel free to contact me.




                                                     Assistant Director
                                                     Office for Victim Assistance




                                                30 

                                                                                       APPENDIX III

  THE OFFICE OF JUSTICE PROGRAMS’
RESPONSE TO THE DRAFT AUDIT REPORT


                                                   u.s. n.par......, of J""tk<




s.p.....b<T l.l. !Ol.l
                              Michaol E. HOR>Witz

                              -~
                              Uailed S _ Doportmmt of Justin

TIIROUOH                      R2ymoad. l . _
                              AssisImt Impoctor GmonI for AacIi'
                              ~oftho !mp<darGmonl
                              Uailed SUI« o.p.nm.nt of Justin


FROM:


SUWECT'                       h>paDse to tho ~ of tho Impoctor GmonI', DnlI Audit
                              Rq>xt. 11w FoMrnJ _        ofm-lit<Jliorl;, .-I""""""":_
                              lI.!p>mlo: ofFIDtIb IMtnbId_frottt ,... en-.. 1'O<1iIR> Fomd

This ~ ~ • _                 to Iho Offi"" oflho Impocto<GmonI ', (OIG',)
~4. 201, dnlI oudit upart. <IlIitkd:no. F-..J. _      afm-ri~_;'.-Icc<oouImo:
_lUPOnRr: ofFIDtIb ~,-frottt ,... en-.. 10cm0u Fomd. n.. Office of Justin
~ (OJP) _ _ Iho ~to..view ..... """"""'" oalho dnlI r<p<J<t.


n.. dnlIlUdil TqlOO dots IID1 cotlbit! my ummmmdatilm dirtnr:d _utb Q/P lfuotn....
OJP wwId Ii... to tako Ibis ~            to pnn.->i< clarificatioo. to.
                                                                    ~       ..... ia Iho dnlI _ ,
f<p<Ift. n.. lint is ",lakd to tho 010', ~ thallho F<doW _              of lm"<Stipi<ID (FBI)
, I lq>Urledlho_offlmrlin!:thaI,.....m.dImop«ll"fi>caI >-(FY) 2009, ..tthi,
1lDIIonq>UttiDj: RSIIlIed. in OJP', Office for Victim:. of Crime (OVC) owatdiDfl-1imdiDfl
rn-Iho Crime Victims fuDd (C1iF) .. FY 2010 _ it """"'""" IllWid ...... JmViclod to Iho
FlIl n.. co"l""'" !ipI= pnn."idod IIltIUdly by tho FBI to ove Of< m=Iy -..s, _                   ""
infonaatioo. aniLab&..1ho limo 1hry _ p=<D!od to ove. This infonaatioo., to OW',
~ is pnn."idod in ~ faith I!ZId is _               iat<Ddod to ~ Iho _                  of CHtJ<"w
fImdinp:.,-.iIabJe ro, tho ~ of~ ~ ~> ~ OVC bdr,,,, thai
Iho ...... Irxk~ 'l"'_ ~ by tho FlII .. FY 1011, ,, "",n .. tho _ M, n ' r ­
I!ZId I'top;mn ~ biRd bylho FBI'I Offi.,. fin Victim ~ .. 20 11, will allow. I)
_1!tCIIm~            . ~ I!ZId ~ ofCVF e l l                ! "I""; I!ZId 2) """" """""" """"'"
~ ofCVF ~ I!ZId Imop«II CVF fimds to ove




                                               31 

Th<1OC<IIOd poiaI of d.arificatioo. reIms to !be OIG', sta_1haI ove IhoWdhl,,, ~
tbe FBI to ~_ iI ..,:th"""" d<coilod fj n • ....;.I ....... mtinf:...,.,.m" .. r<qUiud by ,~;;;._
-.~ O y _. II IhoWcI. he O<>kd tha1 ove bad prmou.IyRql>OSl<d SU<.b. _ _

lui bad "'" =<i,~ iL ~y> ill _                      to tbe 010', """" be iapd iIIlo ill IT 1012
WodpIaDfur Audi... Enluon.c-, 0Dd~ OJPrec                                 ' d, oo.hmoll, 1011,!hot
tbe OIG....,.;.z...!iliDfl. pmtioD of"'" CVF to ............. !be flmIk ..... ~y roo!roII<d
""" " ' I "" , ~ bocmoo ove had. ...... """hie to obotiD.compI<Ie ""'~
........ mrin~ ..... -_ tbe FBI """ tbe E:.ocutive Office ofl1Di1«l. S..... AH"""l"'_ oJp
~_tbe O !G' . _ _ thi>a>ditmdbooo..,.tbe~iqro\_will

sip5cmt1y llid OJP iD. ill "'~ ofCVF fimIk

TIwlk   )"'l f«   ywr «XIIiau<d - ' mil usU!aD«. !f)"'l lin" my cpsIiam ~tlDs
"""-> pJease <XIDIICI Maur= A . Htma:bu& Direnoo-, Offic. of Au<hl, A""' =            " , md
Mano~, 00. (lO2)        616.-1282_

ce:     Aaaa ManiDez
        s.mo.- Ad\'isar 10 tbe Associa.. Attom.y a-..I
        Office of tbe ksori>t< All""'")' o.-r.J




        J...... H. Bmch.U
        o.p.ry AssiSIlIDI AttorDey a-ru
          far ap.rn;.- ODd Mmo~

        JOl"' FrosI
        ~
        omc.. for VictiJm oferimr




                                                32 

......,"""
DIncIoo . ...... 1lIa_ ~
1anIaI Re<.... _ E'......... OIID
""*'« 101M'!    ' 0.,,_




                                    33 

                                                            APPENDIX IV

              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The Department of Justice, Office of the Inspector General (OIG)
provided a draft of this audit report to the Federal Bureau of Investigation
(FBI) and the Office of Justice Programs (OJP). The FBI and OJP responses
are incorporated into Appendix II and Appendix III of this final report. The
following provides the OIG analysis of the responses and summary of actions
necessary to close the report.

Analysis of FBI and OJP Responses

      The FBI concurred with all three of the OIG’s recommendations; as a
result, the report is resolved. In its response, the FBI also provided
information describing the accomplishments of its Office for Victim
Assistance (OVA) during the audit period. While the OIG did not receive any
information that suggests the FBI’s accounting of these accomplishments is
inaccurate, we note here that we did not audit these specific cases and
therefore cannot verify the accuracy of the information related to them.

       In its response, OJP offered two points of clarification. First, OJP
stated that to its knowledge, the FBI provided financial information in good
faith without any intention of misrepresenting carryover funding for the
purpose of increasing subsequent years’ funding. We appreciate OJP’s
assessment and note that our report does not indicate in any manner that
the FBI intended to misrepresent financial reporting to enhance future year’s
funding. Overall, the OVC believes that a new tracking system and new
staffing resources will allow for: (1) more accurate tracking and
documenting of CVF expenditures; and (2) more accurate annual reporting
of CVF expenditures and unspent CVF funds to OVC.

       In its second point of clarification, OJP mentioned the OIG statement
that the OVC should have required the FBI to provide it with more detailed
financial records, as required by the interagency agreement. OJP indicates
that it requested this OIG audit because the OVC had previously requested
such information but did not receive it. The OIG statement to which OJP
refers was not intended to suggest inaction on the part of the OVC; instead
it was intended to highlight the OVC’s rights pursuant to the interagency
agreement. We acknowledge OJP’s request for this audit and greatly


                                     34 

appreciate OJP’s continued willingness to offer the OIG work planning ideas
annually. We also appreciate OJP’s acknowledgement that the OIG’s work
on this audit will result in improvements that will significantly aid in OJP
oversight of CVF funds.

Summary of Actions Necessary to Close the Report:

   1. Resolved. The FBI concurred with our recommendation to perform
      analysis for FYs 2010 and 2011, similar to the analysis conducted for
      FY 2009, to identify and remedy unspent funds, unbilled expenses,
      and improperly transferred funds and indicated that they have already
      taken steps to implement remedial actions.

      This recommendation can be closed when we receive the completed
      analysis of FYs 2010 and 2011 accounting information that identifies
      and remedies unspent funds, unbilled expenses, and improperly
      transferred funds.

   2. Resolved. The FBI concurred with our recommendation to
      implement internal control procedures over the CVF funds to ensure
      the compliance with all rules, regulations, and guidelines related to
      the administration of CVF funds. This includes developing year-end
      closure procedures that ensure unspent CVF funds are transferred
      back to the FBI OVA account and expenditures are properly reported
      to the OVC.

      This recommendation can be closed when we receive internal control
      procedures implemented by the FBI that ensure compliance with all
      rules, regulations, and guidelines related to the administration of CVF
      funds. This includes developing year-end closure procedures that
      ensure unspent CVF funds are transferred back to the FBI OVA
      account and expenditures are properly reported to the OVC.

   3. Resolved. The FBI concurred with our recommendation to enhance
      the coordination efforts between the FBI OVA, FBI Finance Division,
      and OVC to ensure CVF funds are properly tracked and reported. This
      includes developing procedures to address any future concerns that
      arise between the OVC and FBI regarding the FBI’s compliance with
      the interagency agreement requirements.

      This recommendation can be closed when we receive implemented
      procedures that enhance the coordination efforts between the FBI
      OVA, FBI Finance Division, and OVC to ensure CVF funds are properly

                                     35 

tracked and reported. This includes developing procedures to address
any future concerns that arise between the OVC and FBI regarding
the FBI’s compliance with the interagency agreement requirements.




                             36 

